Case No.: 20-7606
IN THE SUPREME COURT OF THE UNITED STATES

ZOE AJJAHNON, Plaintiff - Petitioner
v.
ST. JOSEPH UNIV. MEDICAL CENTER & RWJ BARNABAS HEALTH,
Defendants - Respondents

On Petition for Rehear of Petition for Writ of Certiorari
CERTIFICATE OF STATEMENT
I, Zoe Ajjahnon, petitioner in this matter, in compliance with Rule 44 of the Supreme
Court Rules herby certify that the grounds for rehear are limited to intervening
circumstances of substantial or controlling effect or to other substantial grounds not
previously presented.
Petitioner states instant petition’ grounds for rehear is of the substantial matter of the
extreme relief circumstances that occasion the accompanying petition for extraordinary
writ of mandamus to the trial court or extraordinary writ for summary judgment that was
not previously presented.
Petitioner further certifies that the petition for rehear is presented in good faith and not for
delay.
I declare under penalty of perjury that the foregoing is true ancLcjsyect.
X)

DATED: July 1,2021
oe(Ajjahnon, Pro Se Plaintiff - Petitioner

i

